           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION

  ASSOCIATION OF ADMINISTRATIVE
      LAW JUDGES' TRAINING
        CONFERENCE COSTS

   April 2008      A-12-08-28037




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                           SOCIAL SECURITY
MEMORANDUM

Date:      April 7, 2008                                                              Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Association of Administrative Law Judges' Training Conference Costs (A-12-08-28037)


           OBJECTIVE
           Our objectives were to (1) examine the Social Security Administration’s (SSA)
           contributions to previous Association of Administrative Law Judges’ (AALJ) training
           conferences, (2) assess the support for and reasonableness of conference costs, and
           (3) evaluate the nature of the training provided to determine the appropriateness of
           continued SSA support.

           BACKGROUND
           The AALJ 1 has conducted annual training conferences since 1992 to assist
           Administrative Law Judges (ALJ) in meeting their education needs. Each year,
           approximately 150 to 250 of the Office of Disability Adjudication and Review’s (ODAR)
           1,100 ALJs attend the 3-day conference. Over the years, SSA has assisted the AALJ
           with logistics and financial support to conduct the training conference including:

               •   travel for presenters, management ALJs and headquarters personnel;
               •   fees and contract support for presenters;
               •   financial support for printed material, audiovisual and rental equipment;
               •   duty time for those who attend, present, and/or organize the conference; and
               •   reimbursement of attendee registration fees.




           1
            The AALJ is a union representing ALJs employed at SSA. The AALJ started as a professional
           association. In 1999, it became a nationally recognized union as the Association of Administrative Law
           Judges, International Federation of Professional and Technical Engineers, American Federation of Labor
           and Congress of Industrial Organizations.
Page 2 - The Commissioner


To meet our objectives, we reviewed information related to the AALJ conferences that
were held in Calendar Years (CY) 2003 to 2006, 2 including training agendas and
training tapes of the conferences; reviewed SSA and AALJ expenditures related to the
October 2006 training conference in San Diego; and discussed the training conferences
with AALJ officials, ODAR managers and staff, and SSA Office of General Counsel
(OGC) staff. 3

RESULTS OF REVIEW
SSA provided approximately $888,900 in financial and in-kind support to the AALJ to
conduct four training conferences during CYs 2003 to 2006. Moreover, SSA paid for
the entire cost of the last three conferences, leaving the AALJ with residual funds that
could be applied to other union programs. We also found that SSA spent a total of
$354,800 on the 2006 AALJ training conference once conference support and
management travel costs were combined. In our review of the 2006 conference costs,
we concluded that SSA and the AALJ could generally support the underlying
conference costs. However, we identified AALJ expenses that would not normally be
reimbursed by SSA, including a reception, a banquet, and entertainment. Moreover,
training revenues versus other types of revenue were not clearly delineated in the
AALJ’s audited financial statements, making it difficult to isolate revenue associated
with training participants. ODAR management stated the conference provided useful
training to ALJs, though they would prefer more control over the topics and greater
attendance rotation. We believe that the level of support provided by SSA indicates
that the Agency could run the entire conference in-house and have greater control over
expenditures, topics, and attendance. This would also remove any risk that the Agency
is improperly providing support to an employee union.

TRAINING CONFERENCE COSTS

SSA provided approximately $888,900 in financial and in-kind support for the four AALJ
training conferences during CYs 2003 to 2006. SSA support averaged about
$1,049 per attendee over this period, not including management travel costs
reimbursed by SSA.

SSA Contribution to Conference Costs

SSA provided about $888,900 in support to the AALJ training conferences over the past
4 years in a variety of ways (see Table 1): 4


2
 The conferences reviewed were held in San Francisco, California (November 2003); Orlando, Florida
(October 2004); Jacksonville, Florida (October 2005); and San Diego, California (October/November
2006).
3
    See Appendix B for a detailed discussion of our Scope and Methodology.
4
    See Appendix C for a more detailed breakdown of SSA’s costs.
Page 3 - The Commissioner


      •   Direct Costs: Costs include items, such as AALJ scouting trips, speakers’
          honoraria, and travel expenses for presenters.
      •   Indirect Costs: Such costs include the salaries of ODAR personnel assisting with
          planning and development, training material assembly, and audio editing.
      •   Reimbursement for Registration Fees: SSA reimburses conference attendees
          for registration fees used to pay for conference meals and entertainment.

           Table 1: Total SSA Contribution to the AALJ Training Conferences
                                  (CYs 2003 – 2006)
       Support Provided         2003            2004          2005           2006          Total
    Direct Costs               $72,011        $65,652       $72,043        $89,739       $299,445
    Indirect Costs             89,013         72,749         86,223         80,566        328,551
    Reimbursement for
                      1         49,965         56,302        62,650         92,000        260,917
    Registration Fees
    Total                      $210,989      $194,703       $220,916      $262,305       $888,913
Note 1: Registration fees were $295 per attendee in 2003, $325 per attendee in 2005, and $350 per
        attendee in 2005 and 2006. SSA reimbursed attendees in full for these fees with the exception
        of 2005, when only $295 of the $325 was reimbursed.

We found that the support and reimbursement method used by SSA led to very few
direct payments to the AALJ. 5 By paying vendors directly, providing personnel support,
and reimbursing attendees rather than directly paying the AALJ, the Agency enhanced
its ability to maintain control over the majority of conference costs.

The number of conference attendees varied during the CY 2003 to 2006 period, from a
low of 169 attendees in 2003 to a high of 279 attendees in 2006 (see Table 2). SSA’s
contribution per attendee ranged from $940 to $1,248, and averaged about $1,049 over
the 4 CYs.

     Table 2: Number of Attendees and SSA’s Cost Per Attendee (CYs 2003-2006)
                                 2003           2004          2005          2006           Total
    Number of Attendees           169           200            199           279            847
    SSA Contribution to
                               $210,989      $194,703       $220,916      $262,305       $888,913
    Conference
    SSA Contribution Per
                                $1,248          $974         $1,110         $940           $1,049
    Attendee

AALJ Contribution to Conference Costs

We found that SSA’s total contributions to the training conferences over the past
3 years have exceeded the actual costs of the conferences. As a result, SSA paid the
entire cost of the conferences, and the AALJ was left with residual funds when the
registration fee reimbursement and other revenues exceeded the AALJ’s costs.

5
  We did find a few instances of direct payment to the AALJ. For instance, SSA made a direct payment to
the AALJ via the third-party draft process for seven headquarters employees attending the 2006 training
conference.
Page 4 - The Commissioner


The AALJ’s financial statements show the organization spent about $316,200 on the
training conferences during CYs 2003 to 2006. However, over this same period, it
                             6
collected conference revenue of approximately $333,300. As a result, the AALJ’s
revenue exceeded expenses by approximately $17,200 during this 4-year period (see
Table 3).

     Table 3: AALJ Training Conference Revenues and Expenses (CYs 2003-2006)
             Item                   2003          2004          2005           2006          Total
    Conference Revenue            $63,185       $87,858       $74,315        $107,990      $333,348
                           1      (99,368)      (70,093)      (62,710)       (84,018)      (316,189)
    Conference Expenses
    Net Gain/(Loss)              ($36,183)      $17,765       $11,605        $23,972        $17,159
Note 1: AALJ expenses were restated after our review of the underlying support, which we discuss later in
the report.

The AALJ’s Treasurer explained that the AALJ has attempted to conduct conferences
that pay for themselves since it would not be appropriate to use membership dues for a
training conference that benefits only a portion of the membership. 7 The Treasurer also
noted that approximately $100,000 in residual revenues had accumulated from
previous conferences, and these funds were maintained in a separate account to
support future conferences. 8 However, we did not see any evidence of a reserve within
the AALJ’s 2006 financial statements indicating that any residual funds would be
reserved to cover the next year’s conference. As a result, these excess funds are
available to support any other part of the AALJ’s mission, including union-related
activities and lobbying.

We do not believe SSA should have reimbursed the AALJ an amount that exceeded
actual conference expenditures. Should SSA provide similar support to future
conferences, the process should involve some form of final accounting by the AALJ
before SSA reimburses attendees for registration fees, so that the Agency’s
reimbursement does not lead to residual funds for the AALJ. SSA will also need to
decide if prior amounts paid to the AALJ in excess of actual costs should be reimbursed
to the Agency.




6
 This revenue includes attendee registration fees as well as other fees collected for the conference, such
as meal costs for a spouse who is not part of the conference.
7
  The Treasurer also noted that some expenses were paid by the attendees and not reflected in the
AALJ’s financial records. For example, he stated that the training attendees paid a higher hotel room rate
to cover the training conference rooms. Since the non-management ALJs were not reimbursed by SSA
for their travel expenses, some of the conference room costs were paid for by these ALJs.
8
    The AALJ maintains separate checking and money market accounts related solely to conference activity.
Page 5 - The Commissioner


Additional SSA Travel Costs

As demonstrated in Table 2, attendance at the 2006 conference increased by about
40 percent. We believe this increase relates to 2006 being the first year ODAR decided
to send one-third of its Hearing Office Chief ALJs (HOCALJ) and reimburse their travel
                                                                              9
costs. ODAR does not reimburse non-management ALJs for their travel costs.

The additional SSA participants most likely reduced the average cost per attendee
demonstrated in Table 2. However, SSA experienced an increased cost by paying for
this additional travel. SSA’s records show the Agency spent approximately $85,300 on
travel associated with sending management ALJs to the 2006 conference. SSA also
spent about $7,200 on travel for other Headquarters attendees, for a total of about
$92,500 in travel costs. As a result, SSA spent approximately $354,800 in conference
and management travel costs for the 2006 AALJ training conference.

CONFERENCE COST SUPPORT AND REASONABLENESS

In our review of the 2006 conference costs, we found that SSA and the AALJ could
generally support the underlying conference costs. However, the 2006 AALJ
conference expenses also included some union activity costs that had to be subtracted
before we could determine the final expenditures. We also found AALJ expenses that
would not normally be reimbursed by SSA, including a reception, banquet, and
entertainment. Moreover, types of revenue were not clearly delineated in the AALJ’s
audited financial statements, making it difficult to separate training revenue from other
types of revenue, such as meal fees for spouses.

SSA Expenditures

SSA provided support for its costs in the form of transaction data from its financial
systems, requisitions, and calculations. 10 For instance, the Agency provided
calculations of the salaries of employees who assisted in the planning and development
                   11
of the conference. We reviewed the supporting documentation provided, requested
additional documentation where necessary, recalculated indirect rates, and obtained
support for the reimbursement of registration fees and travel costs.

The audiotaping expenses seemed excessive compared to the overall benefit realized.
We found the Agency spent approximately $21,400 in direct and indirect costs for the
audiovisual support at the 2006 conference. This represents about 8 percent of SSA’s
2006 conference costs. The intent of taping the conference was to provide training
9
 In a 1999 memorandum, the OGC expressed concerns that paying for non-management ALJs to attend
a conference where union business could be discussed in the evening and before/after the conference
could be seen as support for the union. See Appendix F.
10
     A full explanation of SSA’s direct and indirect costs are provided in Appendix C.
11
  Some of these employees assisted in the assembly of conference material, set up and occupied booths
during the conference, and edited the audiovisual presentation.
Page 6 - The Commissioner


material for ALJs who did not attend the training conference. However, when we asked
ODAR staff to provide us with evidence that the tapes were being requested and
reviewed by ALJs, they told us that they do not track the distribution and use of the
tapes. SSA spent about $121,000 for audiovisual contracts and related expenses at
                                                                   12
the four conferences (or about 13 percent of total contributions). In addition, SSA
maintained control over the editing of this material. In our review of the taped material,
we also found that some of the training sessions were either heavily edited or missing,
limiting the overall value of the taping process. AALJ staff told us the Agency did not
support any type of taping at the 2007 training conference in Providence, Rhode Island.
Hence, this was not an issue at the most recent training conference.

AALJ Revenue and Expenditures

We met with the AALJ’s Treasurer and certified public accountant to review the
Association’s expenditures for the 2006 training conference. We reviewed the AALJ’s
CY 2006 audited financial statements, which had a separate “Statement of Annual
Conference Activity” section for the conference revenues and expenditures. The report
initially stated the AALJ collected $107,990 in conference fees and spent $91,404 in
conference expenditures, with “excess revenues” of $16,586.

We found the audited financial statements and related support did not clearly delineate
between conference fees related to training conference attendees versus fees
associated with other conference activities, such as an ALJ paying for the meal of a
spouse or attendance at a reception. 13 Moreover, while the AALJ was able to support
the majority of its expenditures, we identified $7,386 in expenditures that we could not
relate to the training conference. After discussing each item, we found they related to
union-sponsored activities unrelated to the training at the conference. After removing
these items, we found the AALJ’s total conference expenditures were $84,018 and
excess revenues were $23,972. 14

We also found that some of the AALJ conference expenditures were not related to the
training of attendees. For example, the union spent approximately $29,000 on an
evening president’s reception and a banquet, which included about $2,900 in “liquor
sales” expenses. 15 The AALJ spent another $3,200 on banquet entertainment, which
included a mariachi band and dancers. While we believe that some of the food and
beverage costs may have been appropriate if it was provided during the training
12
  The 2003 and 2004 conferences were videorecorded, while the 2005 and 2006 conferences were
audiotaped.
13
  The Treasurer of the AALJ provided additional support for the revenues. The financial records indicate
approximately 88 percent of revenue related to registration fees, and the remaining 12 percent related to
additional amounts collected from guests attending the meals, president’s reception and/or banquet.
14
  See Appendix D for the restated 2006 AALJ expenditures. We also decreased AALJ’s 2003 conference
expenses by $33,669 for amounts paid by SSA in 2007.
15
  As part of the registration fee, each training participant was provided with two drink tickets that could be
used at the president’s reception for alcohol or non-alcohol drinks.
Page 7 - The Commissioner


conference, we do not believe the $32,200 spent on evening food and entertainment, or
38 percent of the AALJ expenditures, can be related to the training costs. Therefore,
                                                         16
these activities should not have been reimbursed by SSA. For instance, SSA policy
on “Domestic Non-Government Sponsored Conferences/Meetings” states

        Fees which may be termed “registration fees” and collected for
        purposes such as entertainment, social events and refreshments for
        coffee breaks cannot be reimbursed. This applies even though receipts
        may be issued as registration fees. 17

We spoke to SSA’s OGC to see if any other criteria would apply to such
circumstances. 18 OGC staff noted that the Government Accountability Office (GAO)
had issued a training and conference “decision-tree” illustrating which conference
expenses an agency may properly reimburse. However, in our review of this GAO
decision-tree, we could not find support for the reception, banquet, and entertainment. 19
The GAO document stated that participation in a meal must be “necessary to obtain full
benefit of training.” Since the evening events were outside the training period, they
could not be considered “necessary.” As a result, we believe SSA should not have
reimbursed the AALJ for these expenses. 20

NATURE OF THE CONFERENCE TRAINING

ODAR management said they found the conference provided useful training to ALJs,
though they would prefer more control over the topics included on the agenda. While
the AALJ planned and managed the annual training conferences, ODAR management
had input on the training agenda as well as the scheduling of the conference. However,
ODAR management said that they would have preferred greater rotation among
non-management ALJs. In addition, the training conference agenda included time for
ODAR management to educate the ALJs on Agency issues.

ODAR and AALJ Collaboration

16
   In addition, SSA employees being reimbursed by SSA for their travel and per diem should not claim
reimbursement for meals on any evening where a meal is provided. Otherwise, SSA will pay for the same
meal twice; once via the registration fee and again via the travel voucher.
17
 Administrative Instructions Manual System (AIMS), General Administrative Manual 04.02.06.C,
Registration and Payment Procedures; and Financial Management Manual 07.20.11.E, Registration Fees.
18
   We did not conduct a full review of relevant Federal appropriation law, but rather relied on SSA
personnel and policies to better understand the criteria used by the Agency to fund such events.
However, we believe relevant Federal appropriation laws may need to be reviewed as part of any updates
to existing Agency policies.
19
  69 Comptroller General 197 (1990). The basis for this rule is that entertainment is essentially a
personal expense, even when it occurs in some business-related context.
20
  A review of AALJ documentation related to the CY 2003 to 2005 conferences shows similar
expenditures on food, beverage and entertainment.
Page 8 - The Commissioner


ODAR management and the union stated that the conferences had been a useful tool
for training ALJs. Attendees of the 2006 conference were eligible to receive about
25 continuing legal education (CLE) credits for training related to medical, legal and
ethics topics. 21 For instance, some of the conferences focused on a major medical
impairment to better understand such disabilities. At the 2006 conference, the
emphasis was on cardiac and vascular impairments. 22 ODAR management also noted
that they would prefer more control over the training conference agenda to ensure it
covers all the topics ODAR considers to be important in the development of ALJs.

An AALJ committee planned and administered the annual training conference, including
establishing the conference agenda and choosing the speakers, and ODAR
management was consulted on the topics and speakers. 23 ODAR management also
recommended specific times to avoid holding the conference, including the period late
in the fiscal year where case workloads may limit Agency participation in the
conference. 24 SSA was also allotted a period during the conference when Agency
management could discuss workload and program issues. For example, at the 2006
                                                                            25
training conference, about 4.5 hours were set aside for SSA management.

Other union and management-related discussions may occur during the same week as
the training conference. AALJ officials told us that they may discuss union business in
the evening or before/after the conference, but not during training hours. We found no
evidence in our review of the agenda or discussions with ODAR staff that union
business was discussed during the training conference. ODAR staff noted that SSA
management held a separate session during the 2006 training conference where
HOCALJs and Regional Chief Administrative Law Judges discussed SSA-related
business.




21
  The AALJ assists the ALJs in obtaining CLEs for this training. Some ALJs are required to obtain CLEs
as part of their membership in a State bar association.
22
     See Appendix E for a copy of the 2006 training conference agenda.
23
   In at least one case, SSA did not agree with the selection of the speaker and refused to pay the costs of
travel and honoraria for the speaker.
24
  The AALJ created an agreement outlining the role of the union and the Agency in planning the
conference, and while the Agency is basically following this outline in its actions, it did not sign the
agreement. The AALJ also noted that they generally wait for Agency management’s commitment to the
next conference before starting the planning process since SSA’s participation and support is a key part of
the conference.
25
     See the 2006 training conference agenda in Appendix E.
Page 9 - The Commissioner


Conference Attendance

We also found that the AALJ training conference is basically an SSA-only event. For
example, we found that 99 percent of the attendees at the 2006 conference were from
SSA, and 78 percent of the speakers were from SSA.

In one of our meetings with ODAR management, we were told that the same non-
management ALJs may attend the conference each year. We also looked at the
frequency of conference attendance to address a concern expressed by ODAR
management regarding a possible training gap as a result of the same ALJs attending
year after year. While ODAR managers see value in the training conference, they
believe that many ALJs are missing out on necessary training, and ODAR management
                                                                                   26
wanted to ensure that the funds spent on the conference benefited ALJs as a whole.
In our review of the attendance at the CY 2004 through 2006 conferences, we found
that 26 percent of the attendees were the same non-management ALJs in all 3 years,
and 57 percent of attendees were the same non-management ALJs in at least 2 of
3 years.

LEGALITY AND APPROPRIATENESS OF COLLABORATION

We found that the level of support provided by SSA indicates that the Agency could run
the entire conference in-house and have greater control over expenditures, topics, and
attendance. This would also remove any risk that the Agency is improperly providing
support to an employee union.

Level of SSA Support and Control

We reviewed the facts related to the current conference arrangement between the
AALJ and SSA, as well as prior correspondence between SSA management and OGC,
to assess whether the training conference collaboration by the Agency and the AALJ
was appropriate. As noted above, we found that the conference provided useful
training to the ALJ attendees, and union activity was not occurring during training hours.
Moreover, SSA had control over the majority of the direct and indirect conference costs,
thereby limiting the amount of funding provided directly to the AALJ. In fact, even the
reimbursement method for registration fees kept the Agency at “arms-length” from the
union to enhance independence. However, as we also noted above, a portion of the
registration fees were used for expenditures that SSA cannot pay for under its own
policy. Moreover, SSA’s contribution to the AALJ exceeded the full costs of the
conferences. For instance, not only did SSA pay approximately $32,200 for reception,
banquet and entertainment expenses, but the AALJ had approximately $24,000 in
residual funds related to the conference. This $56,200 in support represents about
21 percent of the 2006 total conference costs and most likely would not have been paid
had SSA maintained closer oversight of overall conference expenditures.

26
   As noted earlier, ODAR management decided in 2006 to rotate one-third of all HOCALJs through the
training conferences. However, since the Agency does not pay for the travel of non-management ALJs, it
does not have the same control over attendance.
Page 10 - The Commissioner


In addition, other factors noted earlier recommend against maintaining this
arrangement, including:

      •   The AALJ training conference has been primarily attended by SSA personnel.
      •   The majority of speakers at the conference has been SSA personnel.
      •   We could find no evidence that SSA maintained a similar arrangement with any
          other employee union.
      •   SSA management has been constrained in its ability to send non-management
          ALJs even though it would like to ensure all ALJs have an opportunity to attend.
      •   SSA has provided the majority of the financial and technical support for the
          conference.

We have also learned that ODAR has supported similar in-house training conferences
of its own personnel and sent all ALJs—management and non-management—to learn
more about SSA’s programs and relevant legal topics. For example, in August 2006 a
                                                        27
training conference was held for all ALJs in Region IX. The 2-day conference covered
topics, such as video hearings, adjudication in the electronic environment, docket
management, ethics, and Agency programs. Hence, some of the AALJ training may be
duplicative of other SSA training, and thereby increases overall Agency expenditures on
training.

Given all the factors noted above, we believe SSA would be better served by
administering its own ALJ training conference in-house. In this way, SSA would
(1) control all costs, (2) ensure the topics meet ODAR’s training requirements,
(3) ensure full or rotational attendance of all ALJs, and (4) avoid potential duplication of
costs.

Unfair Labor Practice

Conducting future training conferences in-house would also remove the risk that SSA is
providing improper support to an employee union. Under the Federal Service Labor-
Management Relations Statute, it is an unfair labor practice to

          …sponsor, control, or otherwise assist any labor organizations, other
          than to furnish, upon request, customary and routine services and
          facilities if the services and facilities are also furnished on an impartial
          basis to other labor organizations having equivalent status. 28




27
  Region IX includes Arizona, California, Nevada, Hawaii and the territories of Guam, American Samoa,
and Saipan.
28
     5 U.S.C § 7116(a)(3)(1999).
Page 11 - The Commissioner


While we believe SSA has taken steps to prevent the conference support from
becoming an unfair labor practice, the Agency’s lack of cost controls and desire for
greater control over the topics and attendance could potentially cause the Agency to
violate this provision. 29

CONCLUSION AND RECOMMENDATIONS

The AALJ annual training conference has provided SSA with useful ALJ training over
the years. With this said, we have learned that SSA has paid the full costs of the
CY 2004 to 2006 training conferences, provided excess funds to the AALJ and also
reimbursed attendees for costs the Agency should not have paid. Greater control of
costs could have reduced the Agency’s conference costs. Moreover, SSA has already
demonstrated that it is fully capable of performing most of the conference planning and
implementation, paying all the costs, and providing most of the attendees and
speakers, which supports the argument that SSA should conduct the conference in-
house. ODAR management has already stated an interest in greater control over
conference topics and attendance. However, this may be a level of control it cannot
necessarily assert within the current framework without potentially creating an unfair
labor practice.

To ensure appropriate control over training conference costs, topics and attendance,
we recommend SSA:

      1. End its current support for the AALJ training conference and conduct its own in-
         house training for ALJs.

      2. Review and revise current AIMS policies and procedures regarding registration
         fees for non-government sponsored training and conferences to clearly state
         unallowable costs to ensure conferences are funded in accordance with Federal
         appropriation law.

Should SSA decide to continue its support for the AALJ training conference, we
recommend SSA:

      3. Adhere to allowable cost principles under AIMS, increase oversight of training
         costs and reimbursements to ensure the Agency is not paying more than the
         AALJ’s training-related costs, and obtain a final accounting from the AALJ prior
         to SSA reimbursing attendees for the registration fees.




29
     We provide additional legal context in Appendix F.
Page 12 - The Commissioner


AGENCY COMMENTS
SSA agreed with all three recommendations; however, the third recommendation will
not need to be implemented since the Agency has decided to host in-house training for
ALJs (see Appendix G for SSA’s comments).




                                              Patrick P. O’Carroll, Jr.
                                      Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Costs Paid by Office of Disability Adjudication and Review for the
             2006 Association of Administrative Law Judges’ Training Conference

APPENDIX D – Association of Administrative Law Judges’ Costs for the 2006 Training
             Conference

APPENDIX E – Agenda for the 2006 Association of Administrative Law Judges’
             Training Conference

APPENDIX F – Legal Issues Concerning the Association of Administrative Law Judges’
             Training Conference

APPENDIX G – Agency Comments

APPENDIX H – OIG Contacts and Staff Acknowledgments
                                                         Appendix A

Acronyms
AALJ     Association of Administrative Law Judges
AIMS     Administrative Instructions Manual System
ALJ      Administrative Law Judge
CLE      Continuing Legal Education
CY       Calendar Year
FSLMRS   Federal Service Labor-Management Relations Statute
GAO      Government Accountability Office
GETA     Government Employees’ Training Act
HOCALJ   Hearing Office Chief Administrative Law Judge
ODAR     Office of Disability Adjudication and Review
OGC      Office of General Counsel
OIG      Office of the Inspector General
SSA      Social Security Administration
                                                                       Appendix B

Scope and Methodology
To accomplish our objectives, we:
   •   Reviewed the Social Security Administration’s (SSA) Administrative Instruction
       Manual System, the Social Security Act, the Government Accountability Office’s
       rulings, and other relevant policies, procedures, laws and regulations.

   •   Reviewed information related to the Association of Administrative Law Judges
       (AALJ) conferences held in Calendar Years (CY) 2003 to 2006, including:
       o support for all SSA assistance and funds, direct and indirect, provided to
         Administrative Law Judges (ALJ), conference organizers, and other parties
         associated with the 2006 AALJ training conference;
       o support for all 2006 conference costs, direct and indirect, incurred by
         conference organizers and participants (that is, travel costs, hotel costs, and
         registration fees);
       o Agency contracts, policy statements, and memoranda regarding conference
         costs, topics, and participation; and
       o conference agendas, binders, and associated materials, including available
         videotapes of conference discussions.
   •   Met with AALJ officials and the AALJ’s certified public accountant to discuss and
       review the Association’s expenditures for the 2006 training conference.
   •   Obtained and compiled attendance lists for AALJ Training Conferences from
       CY 2003 to 2006 to determine the number of attendees and the frequency of
       conference attendance.
   •   Met with Office of Disability Adjudication and Review’s (ODAR) managers to
       discuss conference costs and ODAR’s training policies and practices.
   •   Met with Office of General Counsel staff to discuss relevant policies related to
       ODAR’s collaboration with the AALJ on the AALJ training conferences.
   •   Reviewed other ODAR training events held by SSA’s Regional Offices.

   We found the 2006 cost data provided by SSA and the AALJ to be sufficiently
   reliable to meet our objective. We discuss data discrepancies and questionable
   costs within the body of our report and appendices. The entity audited was the
   Office of the Deputy Commissioner for Disability Adjudication and Review. We
   conducted our audit from July through December 2007 in accordance with generally
   accepted government auditing standards.
                                                                      Appendix C

Costs Paid by Office of Disability Adjudication
and Review for the 2006 Association of
Administrative Law Judges’ Training
Conference
The Social Security Administration (SSA) provided approximately $262,300 in financial
and in-kind support to the Association of Administrative Law Judges (AALJ) to conduct
the 2006 annual training conference. This amount related to direct costs, indirect costs,
and reimbursement for registration fees. SSA also spent approximately $92,500 in
attendee travel costs for the 2006 conference. If this is included in the Agency’s overall
costs, SSA spent about $354,800 on the 2006 AALJ training conference.


         Table C-1 SSA Contribution to the 2006 AALJ Training Conference
                                      Direct Costs
                     Functions                              Expenditure
 Audiotaping                                                             $20,179
 Printing                                                                  3,871
 Speakers Honoraria                                                        6,500
 Travel for ALJ Presenters, Headquarters’ Personnel
 and Non-Office of Disability Adjudication and Review                     52,845
 (ODAR) Speakers
 CD Duplication                                                            2,017
 Scouting Trips                                                            4,327
 Total Direct Costs                                                              $89,739




                                           C-1
         Table C-2 SSA Contribution to the 2006 AALJ Training Conference
                                  Indirect Costs
                       Functions                            Expenditure
 Planning and Development1                                              $52,052
 Booth Set-up                                                             1,986
 Post Audio Editing                                                       1,191
 Graphics                                                                 1,344
 Books Assembly/Binder Preparation                                        1,912
 Distribution/Staff Time                                                     29
 Presentation Preparation                                                 6,310
 On-Site Specialist                                                       1,412
 In-House Printing                                                          259
 Benefits2                                                               14,071
 Total Indirect Costs                                                   $80,566
Notes: (1) These costs include the salaries of 14 individuals, including ODAR management, contracting
       and acquisition specialists, and other support staff. Dollar amounts shown are calculated by
       hours worked, multiplied by applicable hourly grade/step salary of employees.
       (2) Benefits based on 21.16 percent of employees' Washington DC - Baltimore - Northern Virginia
       hourly salaries and locality pay.


        Table C-3 SSA Contribution to the 2006 AALJ Training Conference
                               Registration Fees
                     Function                              Expenditure
 Registration Fees                                                      $92,000
 Total Registration Fees                                                $92,000
Note: The registration fee was $350 per attendee for the 2006 training conference. SSA attendees would
pay the registration fee and later request reimbursement from the Agency. The seven individuals who
attended from the Office of General Counsel paid their own registration fees totaling $2,400.


       Table C-4 SSA Travel Costs for the 2006 AALJ Training Conference
                       Traveler                            Expenditure
 Headquarters management and staff                                      $7,149
 Hearing Office Chief Administrative Law Judges                         64,200
 Regional Chief Administrative Law Judges                               21,108
 Total Travel Costs                                                                          $92,457
Note: The Headquarters and Regional Chief Administrative Law Judges figures were adjusted downward
as a result of our testing a sample of transactions back to support documents.




                                                 C-2
                                                                               Appendix D

Association of Administrative Law Judges’
Costs for the 2006 Training Conference
The Association of Administrative Law Judges (AALJ) spent approximately $84,000 on
the Fiscal Year 2006 training conference. After accounting for revenues of
approximately $108,000, the AALJ had residual funds of about $24,000 that could be
used to support the mission of the Association.

                 AALJ Costs for the 2006 AALJ Training Conference
                  Activity                             Expenditures
 Revenues
 -- Conference Fees                                                                       $107,990
 Total Conference Revenues                                                                $107,990
 Expenses
 -- Three Breakfasts/Coffee Breaks                          $26,178
 -- Three Lunches                                            19,962
 -- President’s Reception1 (Held 10/31/06)                    8,781
 -- Dinner Banquet (Held 11/1/06)                            20,104
 -- Miscellaneous                                               567
 Subtotal – Food and Beverage                                                               $75,592
 -- Dinner Banquet Entertainment2                             $3,273
 -- Shuttle Transportation                                     2,160
 -- Miscellaneous                                                568
 Subtotal – Entertainment and Events                                                           6,001
 -- Gifts for SSA Presenters3                                   $257
 -- Postage and Miscellaneous                                  2,168
 Subtotal – Other Expenses                                                                    2,425
 Total Conference Expenses4                                                                 $84,018
 Total Residual Funds                                                                       $23,972
Notes:    (1) This figure includes $2,945 in “liquor sales” expenses.
          (2) Entertainment included a mariachi band and six dancers.
          (3) The gifts were two clocks.
          (4) In our review of the AALJ expenses, we found $7,386 in expenses that did not belong to
              the training conference but instead related to union activities. We removed these
              expenses to derive the figures in the table.
                                                                     Appendix E

Agenda for the 2006 Association of
Administrative Law Judges’ Training
Conference
                   Fifteenth National Educational Conference - 2006
                       Association of Administrative Law Judges

              The Cardiovascular System: Medical and Vocational Issues

                                        Agenda

                                        Day One

8:00 – 8:50       Lexis/Nexis
                  Speaker: Laurie Rabenhorst and James Igoe, Librarian, Social
                  Security Administration
                  or
                  Agency Relocation Procedures
                  Speaker: Tim Beavers, Support Services Specialist, Office of the
                  Regional Commissioner, Atlanta Region (Islands Room)

9:00 – 9:30       Call to Order
                  Speaker: Pat McLaughlin, ALJ, Conference Chairman

                  Welcome and Opening Remarks
                  Speakers: President Ronald Bernoski
                            Andrew Albert, Esq.,
                            President, San Diego Bar Association

9:30 – 10:30      General Session
                           Cardiac Impairments
                           An overview of cardiac disease, common diagnostic tests
                           and treatment
                           Speaker: Betty Grant-Anderson, MD, JD, FACP

10:30 – 10:45     Break




                                           E-1
10:45 – 11:45   Cardiac Impairments and Vocational issues
                         A discussion of cardiac disease using several hypothetical
                         case studies. Cases will be examined in light of the medical
                         listings, residual functional capacity and the effects of
                         treatment
                         Panelists: Dr. Grant-Anderson, ALJ John P. Costello, and
                         Larry P. Spain, Office of Medical Policy

11:45 – 1:15    Opening Luncheon
                Speaker: Hon. Irma E. Gonzalez, Chief Judge, United States District
                Court, Southern District of California

1:15 – 2:30     Breakout sessions on the following topics:

                   1. New Cardiac Listing Discussion
                      Compare old and new cardiac listing
                      Speaker: Larry P. Spain, Office of Medical Policy

                   2. Depression and Cardiac Impairments
                      Discussion of heart disease, surgical intervention and the
                      relationship to depression
                      Speaker: Betty Grant-Anderson, MD, JD, FACP

                   3. Avoiding Judicial Burnout: Tips on Managing a High-
                      Volume Practice
                      Speakers: ALJ Linda A. Stagno and Isaiah Zimmerman, Ph.D.

2:30 – 2:45     Break

2:45 – 3:45     Repeat Breakout Sessions

3:45 – 4:00     Break

4:00 – 4:30     Remarks
                Speaker: Lisa deSoto, Deputy Commissioner, ODAR


                                      Day Two

8:00 – 8:50     Bench Decisions
                A Question/Answer and How-to session
                Speaker: ALJ Thomas S. Robinson

8:00 – 8:50     Lexis/Nexis (repeat of day one program)

9:00 – 10:30    Vascular Diseases


                                         E-2
                        An overview of vascular disease, common diagnostic tests
                        and treatment
                        Speaker: Irwin Weinreb, MD, Clinical Professor, University
                        of California Medical Center, and Medical Consultant, San
                        Francisco Regional Office

10:30 – 10:45   Break

10:45 – 12:00   Vocational Issues in Vascular Diseases
                      A discussion of vascular disease using several hypothetical
                      case studies. Cases will be examined in light of the medical
                      listings, residual functional capacity and the effects of
                      treatment
                      Panelists: Dr. Weinreb, ALJ Michael L. Brownfield, and
                      Larry Spain, Office of Medical Policy

12:00 – 1:30    Lunch
                Commissioner Jo Anne B. Barnhart

1:30 – 3:00     Circuit Breakout Sessions
                      Presentation/discussion of case law particular to each circuit
                      and tips to avoid remands
                      Panelists: an ALJ and OGC attorney for each panel

                 Circuit                 ALJ                       GC Attorney
                  st       nd
                 1 and 2 Circuits        Peter J. Martinelli       Susan Reiss, Region II
                  rd    th
                 3 and 4 Circuits        Mark G. Barrett           David Chermol, Region
                                                                   IV
                 5th and 8th Circuits    G. Roderic Anderson       Rhonda J. Wheeler,
                                                                   Region VII
                  th       th
                 6 and 7 Circuits        Donald Garrison           Richard Fox, OPL
                 9th and 10th Circuits   Peter J. Valentino        Jeffrey H. Baird,
                                                                   Region X
                 11th and DC             Dale D. Glendening, Jr.   Laura Ridgell-Boltz,
                 Circuits                                          Region VII

3:00 – 3:15     Break

3:15 – 4:30     Breakout sessions on the following topics:

                1. Addressing challenges to Vocational Expert testimony
                   How to anticipate and address Challenges to Vocational Expert
                   Testimony. (e.g., use of the O*NET, DOT, computing job
                   numbers, classifications at variance with DOT, and others)
                   Panelists: ALJ Mary Kunz and James H.Gold, OPL
                2. eDib – Best Practices for the Electronic Folder



                                          E-3
                        A discussion of eDib and electronic folders: Tips and
                        suggestions for efficient use
                        Panelists: ALJs Nancy Brock and Thomas Snook, Susan
                        Brown

                   3. Special Topics in Disability Adjudication
                      An Overview of TWP, EPE, Retirement, self-employment
                      Panelists: ALJs Cheri L. Filion and Barry Wesker


                                        Day 3

8:00 – 8:50     Security Update / Tips on Diffusing the Volatile
                Speakers: ALJ Mark A. Brown and Isaiah Zimmerman, Ph.D.

8:00 – 8:50     A Report on Quality Trends
                Speakers: Ray McConchie and Steve Burton
                Office of Quality Performance

9:00 – 9:45     Sylvester J. Schieber, Social Security Advisory Board

9:45 – 10:00    Break

10:00 – 12:15   Agency Presentations
                Theme: Quality and Integrity Matter(s)

                Topics and Speakers:
                Chief Judge presentation – (30 minutes)
                FIT – ALJ David G. Hatfield and Susan Wakshul – (30 minutes)
                OGC presentation – Thomas Crawley (30 minutes)
                DSI presentation – Regional Chief Administrative Law Judge Nancy J.
                Griswold (30 minutes)
                Remaining time: Questions and Answer session

12:15 – 1:30    Lunch

1:30 – 2:45     Repeat of Day 2 Breakout Sessions

2:45 – 3:00     Break

3:00 – 5:00     Judicial Ethics for Administrative Law Judges
                Speakers: Hon. Richard C. Goodwin, Professor Gregory L. Ogden,
                Pepperdine University Law School




                                         E-4
                                                                         Appendix F

Legal Issues Concerning the Association of
Administrative Law Judges’ Training
Conference
The Government Employees’ Training Act (GETA) provides that the head of an agency
may pay all or part of the pay of an employee of the agency for the period of training,
and may pay or reimburse the employee for all or part of the necessary expenses of
training. GETA provides that the necessary expenses of training includes the
necessary costs of travel and per diem, among other things. 1

However, the Federal Service Labor-Management Relations Statute (FSLMRS) makes
it an unfair labor practice to sponsor, control, or otherwise assist any labor organization,
other than to furnish, upon request, customary and routine services and facilities if the
services and facilities are also furnished on an impartial basis to other labor
organizations having equivalent status. 2

In 1999, after the Association of Administrative Law Judges (AALJ) unionized, the
Agency requested guidance from Office of General Counsel (OGC) as to whether it
could provide financial assistance to the union-sponsored training event. OGC advised
that under GETA, the Social Security Administration (SSA) may pay for Administrative
Law Judge (ALJ) training, since ALJs are agency employees. However, it cautioned
that, by providing financial support for a union-sponsored conference or meeting, SSA
may commit an unfair labor practice under FSLMRS. It advised that the Agency could
provide financial support to those portions of the conference related to Agency mission
training, but should not support those related to union business. OGC also noted that
while GETA permits SSA to pay for per diem and ALJ travel to attend the conference, it
advised against SSA’s paying for ALJ travel, as it could encourage ALJs to attend the
entire conference and participate in union business activities as well as Agency mission
training. Significantly, OGC noted that even if the Agency took steps to ensure it only
paid for costs related to Agency mission training, it would be a departure for SSA to
provide financial support for a union-sponsored conference.




1
    5 U.S.C. § 4109(a) (1999).
2
    5 U.S.C. § 7116(a)(3).
                  Appendix G

Agency Comments
                               SOCIAL SECURITY

 MEMORANDUM

 Date:       March 28, 2008                                           Refer To:   S1J-3

 To:         Patrick P. O'Carroll, Jr.
             Inspector General

 From:       David V. Foster /s/
             Chief of Staff

 Subject:    Office of the Inspector General (OIG) Draft Report, "Association of Administrative
             Law Judges’ Training Conference Costs” (A-12-08-28037)


We appreciate OIG’s efforts in conducting this review. Our response to the report findings and
recommendations is attached.

Please let me know if we can be of further assistance. Staff inquiries may be directed to
Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

Attachment:
SSA Response




                                              G-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT REPORT,
"ASSOCIATION OF ADMINISTRATIVE LAW JUDGES’ TRAINING CONFERENCE
COSTS” (A-12-08-28037)

Thank you for the opportunity to review and provide comments on this draft report. We think
your review fully addresses the concerns of the Senate Appropriations Committee to review this
matter. We are in agreement with your conclusion that the Agency would be better served if it
administered its own Administrative Law Judge (ALJ) training. Your audit has identified very
serious concerns about the Agency’s direct and indirect funding of Association of Administrative
Law Judge (AALJ) conference costs over a number of years. Doing so will ensure that Agency
costs are controlled and appropriate. It will enhance the Agency’s ability to provide training to
all ALJs, not just those who have chosen to attend the AALJ conferences in previous years. We
want to ensure that all ALJs are aware of and prepared for all of the business process
improvement that are part of the backlog elimination initiatives.

Deputy Commissioner Lisa de Soto has spoken with representatives of the International
Federation of Professional and Technical Engineers (IFPTE) on several occasions beginning last
fall and advised them that we would be unable to make a decision on funding this year’s AALJ
conference until we received the results of the OIG audit. And on several occasions beginning as
early as last year’s conference in July 2007, the IFPTE made clear to us that it intended to
proceed with this year’s conference in Portland, Oregon, regardless of the results of the audit and
the Agency’s decision on funding. I have also consulted with the Office of the General Counsel
and they are in agreement that the Agency taking over training responsibilities is entirely
appropriate.

Our response to the specific recommendations is provided below. We are also including a
technical comment for your consideration to provide clarification to the text.

Recommendation 1

End our current support for the AALJ training conference and conduct our own in-house training
for ALJs.

Comment

We agree. We will conduct our own in-house training for ALJs.

Recommendation 2

Review and revise the current AIMS policies and procedures regarding registration fees for non-
government sponsored training and conferences to clearly state unallowable costs to ensure
conferences are funded in accordance with Federal appropriation law.




                                               G-2
Comment

We agree. We will review the AIMS policies and procedures and revise as appropriate.

Recommendation 3

Adhere to allowable cost principles under AIMS, increase oversight of training costs and
reimbursements to ensure the Agency is not paying more than the AALJ’s training-related costs,
and obtain a final accounting from the AALJ prior to SSA reimbursing attendees for the
registration fees.

Comment

We would agree, however, we have decided to host in-house training for ALJs.




                                             G-3
                                                                     Appendix H

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Walter Bayer, Director, Chicago Audit Division (312) 353-0331

   Nicholas Milanek, Audit Manager, Falls Church Office (703) 578-8844

Acknowledgments

In addition to those named above:

   Ehab Bestawrose, Auditor-in-Charge

   Mary Ann Braycich, Senior Analyst

   Yaquelin Lara, Auditor

   Debbie Shaw, Attorney

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-12-08-28037.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                         Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure program
objectives are achieved effectively and efficiently. Financial audits assess whether SSA’s
financial statements fairly present SSA’s financial position, results of operations, and cash flow.
Performance audits review the economy, efficiency, and effectiveness of SSA’s programs and
operations. OA also conducts short-term management and program evaluations and projects on
issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
